1

AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
REGINALD L. SYDNOR,
Petitioner
v.
MARK A. ROBBINS, VICE CHARIMAN, ET AL
Respondents
I, Frederick W. Wright, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by:
Reginald Sydnor
731 Buck Lane
Haverford, PA 19041
(610) 649-0327
Pro Se Petitioner
On this 4th day of March 2021 I deposited three copies of the Petition for Writ of
Mandamus, with the United States Post Office to mail priority to the following:
Stacy L.B. Smith, Esq.
Office of United States Attorney
615 Chestnut Street, Suite 1250
Philadelphia, PA 19106
Filiag to the Court has been perfected on the same date as above.

k
FREDERICK W. WRIGHT
Wright Appellate Services, LLC
1015 Chestnut Street, 517 Jefferson Building
Philadelphia, PA 19107
(215) 733-9870*FAX (215) 733-9872*(800) 507-9020

